NO.

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

WILLIE GROSS, JR. - PETITIONER

VS.
DARREL VANNOY, WARDEN
LOUISIANA STATE PENITENTIARY - RESPONDENTS)
PROOF OF SERVICE

2020, as required
I, Willie Gross, Jr., do swear or declare that on this date October
by Supreme Court Ride 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party's counsel, and on every other parson required to be served, by
depositing an envelope containing the above documents in the United States mail, properly
addressed to each of them and with first- class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served ue as follows:
District Attorney
24th Judicial District
200 Derbigny Street,
5th FL, Courthouse Annex
Gretna, La., 70053
Louisiana Attorney Gena's!
1885 N. 3rd St
P.O. Box 94005
Baton Rouge, La. 70804
I declare under pemdty of perjury that the foregoing is true and correct
Executed mi

6dr. 9

.,2020.
O A.«rvO

